                                                           IG-00-049




AUDIT
                           HEALTH CARE COSTS AT NASA CONTRACTORS
REPORT
                                      September 26, 2000




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies


To obtain additional copies of this report, contact the Assistant Inspector General for Auditing
at (202) 358-1232, or visit www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for
Auditing. Ideas and requests can also be mailed to:

        Assistant Inspector General for Auditing
        Code W
        NASA Headquarters
        Washington, DC 20546-0001

NASA Hotline

To report fraud, waste, abuse, or mismanagement contact the NASA Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington,
DC 20026. The identity of each writer and caller can be kept confidential, upon request, to the
extent permitted by law.

Reader Survey

Please complete the reader survey at the end of this report or at
http://www.hq.nasa.gov/office/oig/hq/audits.html.



Acronyms

ACO                 Administrative Contracting Officer
CAS                 Cost Accounting Standards
CIPR                Contractor Insurance/Pension Review
DCAA                Defense Contract Audit Agency
DCMA                Defense Contract Management Agency
DFARS               Defense Federal Acquisition Regulation Supplement
DoD                 Department of Defense
FAR                 Federal Acquisition Regulation
PCO                 Procuring Contracting Officer
W                                                                                  September 26, 2000


TO:               A/Administrator

FROM:             W/Inspector General

SUBJECT:          INFORMATION: Health Care Costs at NASA Contractors
                  Report Number IG-00-049


The NASA Office of Inspector General has completed an audit of health care costs at selected
NASA contractors. NASA's process for controlling health care costs is through reliance on
contractor insurance/pension reviews (CIPR’s) performed by the Defense Contract
Management Agency (DCMA), with Defense Contract Audit Agency (DCAA) support.1 Our
evaluation of CIPR reports for 6 of NASA’s top 20 contracts (see Appendix D) showed that 4
of the 6 reports were incomplete and that 3 of the 6 reports were untimely. Further, recent
Department of Defense (DoD) policy changes governing the timing of CIPR’s can reduce CIPR
coverage by shifting to a risk-based rather than cyclical approach to review insurance/pension
plans and costs. Therefore, NASA contracting officers must increase their oversight of the
CIPR process to ensure sufficient reviews of insurance and pension plans and costs, including
health care costs. The costs can equal more than half the direct labor costs charged to
Government contracts. Improved oversight should lead to more current, accurate, and
complete CIPR’s and to negotiations of fair and reasonable contract prices.

Background

Health care costs are significant and continue to rise annually. The estimated health care costs
for the 6 contracts we reviewed exceed $65 million (see Appendix E). Health care costs are
also susceptible to fraud and abuse.2 The significance and complexity of

1
  NASA delegates its authority to review contractor insurance/pension plans and costs (including health
care costs) to the Department of Defense.
2
  Projected health care costs for the year 2000 could exceed $1.3 trillion and represent about 14.3 percent of
the gross national product. We obtained this data from National Health Expenditure Projections for the
years 1998-2008. The Office of the Actuary, Health Care Financing Administration produces these
projections annually. According to a 1997 General Accounting Office Letter Report, estimated fraud and
abuse costs for health care nationwide range from 3 to 10 percent. Applying those estimates to the year
                                                                                                         2

insurance/pension plans and costs require that CIPR results be current, accurate, and complete.
NASA Procuring Contracting Officers (PCO’s) generally delegate their authority to review
contractor insurance/pension plans and costs to a DCMA Administrative Contracting Officer
(ACO).3 The ACO, based on current Defense Federal Acquisition Regulation Supplement
(DFARS) requirements, determines when CIPR’s are performed. The ACO’s uses the
DCMA CIPR staff to perform CIPR’s and to assist the ACO’s in identifying contractors
needing a CIPR. The ACO is generally responsible for negotiating forward pricing, billing, and
final indirect cost rates involving Government contractors.

Recommendations

We recommended that NASA management establish a process to track and review CIPR’s for
its major NASA contractors. The process should include a requirement for DCMA to provide
a periodic report to NASA on the status of CIPR’s for major NASA contractors. We also
recommended that management revise the NASA Federal Acquisition Regulation (FAR)
Supplement to include guidance for the contracting officer’s review of CIPR’s, the criteria and
process for requesting special CIPR’s,4 and any requirements for contracting officer input to the
DoD on contractors for which NASA has a major financial interest.

Management Response and OIG Evaluation

Management concurred with the findings and recommendations. Management’s response to
our first recommendation related to establishing a process to track and review CIPR’s for major
NASA contractors is potentially responsive. Management plans to investigate the ability of
DCMA’s system to track CIPR’s for major NASA contractors. We understand that other
alternatives will be pursued if the DCMA system does not meet NASA’s needs and ask that
management clarify that intention in response to the final report. Regarding the recommendation
that management revise the NASA FAR Supplement to include guidance for the contracting
officer’s review of CIPR’s, management plans to issue a Procurement Information Circular
containing relevant CIPR guidance. The planned action is responsive to our recommendation.




2000 projected health care costs, we estimated that health care fraud and abuse costs could range from $39
billion (3 percent of $1.3 trillion) to $130 billion (10 percent of $1.3 trillion).
3
  The contracting officer normally delegates various contract administration functions to the ACO pursuant
to Federal Acquisition Regulation Subpart 42.3. Functions delegated to the ACO include reviewing
contractor insurance plans and determining whether contractors comply with Cost Accounting Standards
(CAS). The ACOs use the DCMA and/or DCAA to assist them in carrying out these responsibilities.
4
  DFARS Subpart 242.73, “CIPR,” states that a special CIPR is a joint DCMA/DCAA review that
concentrates on specific areas of the contractor’s insurance program, pension plan, or other deferred
compensation plan. Special CIPR’s are discussed in detail on page 3 of the report.
                                                                                              3

NASA provided several comments concerning the CIPR process, relationship with DCMA and
the fact that we did not identify a dollar impact on a specific contract. To do so would require
us to actually perform or reperform the CIPR’s which was not the objective of our audit. Our
position is that NASA needs to increase its vigilance related to CIPR’s and we are pleased that
NASA has generally concurred. We address management's general comments in our evaluation
of management's responses in the finding section of the report.


[Original signed by]

Roberta L. Gross

Enclosure
Final Report on Audit of Health Care Costs at NASA Contractors
                 FINAL REPORT
AUDIT OF HEALTH CARE COSTS AT NASA CONTRACTORS
W                                                                        September 26, 2000


TO:              H/Associate Administrator for Procurement

FROM:            W/Assistant Inspector General for Auditing

SUBJECT:    Final Report on the Audit of Health Care Costs at NASA Contractors
     Assignment Number A9907000
            Report Number IG-00-049


The subject final report is provided for your use and comment. Please refer to the Results in
Brief section for the overall review results. Our evaluation of your response is incorporated into
the body of the report. We consider management’s proposed corrective action to
recommendation 1 potentially responsive and request that management provide additional
comments by November 27, 2000. The response to recommendation 2 is responsive, and the
recommendation will remain open for reporting purposes until corrective action is completed.

If you have questions concerning the report, please contact Mr. Lorne A. Dear, Program
Director, Procurement Audits, at (818) 354-3360; Mr. Tony Lawson, Program Manager,
Procurement Audits, at (301) 286-6524; or Mr. Michael Bruns, Auditor-in-Charge, at (216)
433-8918. We appreciate the courtesies extended to the audit staff. The final report
distribution is in Appendix H.


[Original signed by]

Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Acting Director, Management Assessment Division
                          NASA Office of Inspector General
IG-00-049
 A9907000                                                                    September 26, 2000

                     Health Care Costs at NASA Contractors

Introduction

The NASA Office of Inspector General conducted an audit of health care costs at selected
NASA contractors. Because health care costs are significant and susceptible to fraud and
abuse, we reviewed the adequacy of NASA's processes to control health care costs for 6 (see
Appendix D) of its top 20 contracts. The estimated health care costs for the six contracts alone
exceeded $65 million annually (see Appendix E).

The DoD ACO, an employee of the DCMA, is primarily responsible for determining the
allowability, allocability, and reasonableness of insurance/pension costs on Government
contracts when contract administration is delegated. The DCMA insurance/pension specialists
and DCAA auditors assist ACO’s in making insurance/pension cost determinations by
conducting contractor insurance/pension reviews. The DoD ACO is assigned responsibility for
requesting and overseeing performance of the CIPR. The DCMA insurance/pension specialist
is responsible for leading the review team and for preparing and distributing to the ACO the final
CIPR report that summarizes review results.

In negotiating fair and reasonable prices for new contracts and modifications to existing
contracts (hereafter referred to as forward pricing), NASA PCO’s generally rely on cost
information, including estimates of future health care costs, that is part of an offeror’s proposal.
The DCMA ACO generally reaches advance agreement with a contractor on forward pricing
rates that are used for purposes of pricing these new contracts and modifications and that
include estimated health care costs for future periods. Similarly, the cognizant DCMA ACO
negotiates insurance and pension costs actually incurred and uses those costs to determine
indirect cost rates that are applied to Government contracts. The NASA FAR Supplement
1842.705 encourages NASA contracting officers to participate in these indirect cost rate
determinations in cases where NASA has a major financial interest. In these forward pricing
and incurred cost negotiations, the CIPR is critical to ensuring that the Government’s interest is
protected.

The overall objective of the audit was to evaluate NASA processes for controlling health care
costs. See Appendix A for additional details on the audit objectives, scope, and methodology.
Results in Brief

NASA had a fundamentally sound process for controlling health care costs through reliance on
CIPR’s performed by DCMA, with DCAA support, in forward pricing and indirect cost rate
negotiations conducted by NASA and DCMA. However, we evaluated six CIPR reports and
determined that four of the six were incomplete and that three of the six were untimely. Further,
recent DoD policy changes governing the performance of CIPR’s by DCMA can reduce CIPR
coverage by shifting to a risk-based rather than cyclical approach to review performance. As a
result, increased attention is warranted by NASA contracting officers to ensure that insurance
and pension costs, including health care costs, are sufficiently reviewed to ensure successful
negotiations and to request special CIPR’s (discussed on next page) when warranted.


Background

In determining the allowability, allocability, and reasonableness of insurance/pension costs on
Government contracts, a DoD ACO is subject to provisions in the FAR, 5 the DFARS, and
Government Cost Accounting Standards (CAS).6 Further, a DCMA Directive, referred to as
the One Book,7 addresses DCMA responsibilities in performing CIPR’s. For NASA
contracts, the ACO is also required to comply with the NASA FAR Supplement.

DFARS CIPR Requirements. DFARS Subpart 242.73, "CIPR," revised November 9,
1999, provides DoD policy governing CIPR’s. DFARS section 242.7301 "General," makes
the ACO responsible for determining the allowability8 of insurance/pension costs in Government
contracts. Further, this section describes a CIPR as an in-depth evaluation9 of a contractor's:
        • insurance program;
        • pension plan;
        • other deferred compensation plans; and
        • related policies, procedures, practices, and costs.

The DFARS section also states that a special CIPR is a joint DCMA/DCAA review that
concentrates on specific areas of the contractor's insurance program, pension plan, or other
deferred compensation plan.


5
  FAR Part 31, " Contract Cost Principles and Procedures," contains principles and procedures for the
determination or allowance of costs.
6
  CAS are designed to achieve uniformity and consistency in the cost accounting practices governing
measurement, assignment, and allocation of costs to contracts with the U.S. Government.
7
  The DoD refers to DCMA Directive 5000.4, “Contract Management,” as the One Book.
8
  FAR Part 31 states that factors for determining allowability include, but are not limited to, allocability and
reasonableness.
9
  Evaluation procedures can consist of verification of premium payments to third-party insurance companies
or payments to insurance companies for administrative fees only. We believe the likelihood of fraud or
waste detection using these procedures is minimal.

                                                       2
Requirements for Conducting CIPR’s. DFARS Section 242.7302, "Requirements," states
that a CIPR shall be conducted only when:

        •   a contractor has $40 million of qualifying sales to the Government during the
            contractor's preceding fiscal year; and
        •   the ACO, with advice from DCMA insurance/pension specialists and DCAA
            auditors, determines the need for a CIPR based on a risk assessment of the
            contractor's past experience and current vulnerability.


The DFARS also states that a special CIPR can be performed when any of the following
circumstances exists, but only if the circumstance(s) may result in an a material effect on
Government contract costs:

        •   Information identifies a deficiency in the contractor's insurance/pension program.
        •   The contractor proposes or implements changes in its insurance, pension, or
            deferred compensation plans.
        •   The contractor is involved in a merger, acquisition, or divestiture.
        •   The Government needs to follow up on contractor implementation of prior CIPR
            recommendations.

If another Government organization such as NASA requests a special CIPR, the ACO can
initiate it or address the requester's concerns as part of a CIPR already scheduled for the near
future.

Before the November 1999 DFARS revision, Subpart 242.73 required that the CIPR team
conduct a review at least every 2 years for qualifying contractors. Additionally, the
November 1999 guidance limits CIPR’s (excluding special CIPR’s conducted based on the
circumstances listed above) to cases in which a risk assessment determines a CIPR is needed
based on the contractor’s past experience or current vulnerability. This is a fundamental change
in the underlying requirement for performance of CIPR’s that can limit both the frequency and
scope of these reviews. To ensure that the ACO can continue to fulfill responsibilities
associated with determining the allowability (includes allocability and reasonableness) of
insurance and pension costs and the needs of other CIPR users are met, it is imperative that
these risk assessments be comprehensive and timely. However, the DFARS provides no
guidance on the frequency or scope of the assessments. This change shifts significant
responsibility from the ACO to the NASA PCO for determining whether the CIPR is adequate
for purposes of a particular negotiation. It should not be assumed that the most recent CIPR is,
in fact, current under this new policy.

CIPR Responsibilities. DFARS section 242.7303 identifies the CIPR-related responsibilities
of the ACO, the insurance pension specialist, and the DCAA auditor. The ACO's
responsibilities include, but are not limited to:

        •   Determining the need for a CIPR.



                                                3
        •   Reviewing the CIPR report, advising the contractor of the recommendations contained therein,
            considering contractor comments, and rendering a decision on those recommendations.
        •   Providing other interested contracting officers copies of documents related to the CIPR.
        •   Performing contract administration responsibilities related to CAS administration as described
            in FAR Subparts 30.2 and 30.6.


The ACO uses resources from the DCMA's CIPR Center10 and the DCAA to perform
CIPR’s. The CIPR Center is composed of two teams 11 that primarily consist of
insurance/pension specialists. Section 242.7303 identifies the insurance/pension specialist as the
team leader for CIPR’s and the DCAA auditors as CIPR team members. The section states
that the team leader’s responsibilities include, but are not limited to:

        •   Maintaining complete documentation for CIPR reports.
        •   To the extent possible, resolving discrepancies between audit reports and CIPR draft reports
            prior to releasing the final CIPR report.


We considered CIPR reports incomplete if the team leader did not include relevant information
from DCAA audit reports or prior CIPR reports that could affect the allowability, allocability,
and reasonableness of insurance costs in the CIPR report. See Appendix B for more DFARS
CIPR requirements concerning responsibilities for the insurance/pension specialist and DCAA
auditor.

CAS 416 Criteria for Insurance Costs. CAS 416 provides criteria for the measurement of
insurance costs, the assignment of such costs to cost accounting periods, and their allocation to
cost objectives. The ACO must ensure contractors comply with this standard. Per the
DFARS, the DCAA auditor is responsible for performing contract audit responsibilities related
to CAS administration. If contractor health care costs do not comply with CAS 416, they are
unallowable. If contract audit work identified a possible contractor noncompliance with CAS
416, and the CIPR report did not include a statement to that effect, we considered the CIPR
report incomplete.

DCMA Directive. DCMA Directive 5000.4, "Contract Management," Chapter 7.2 "CIPR,"
designates the DCMA as the executive agency for performing CIPR’s within the DoD. The
directive states that DCMA performs CIPR's because:

        •   Costs of insurance and pension programs materially affect contract price.
        •   Contractor insurance and pension programs are a high risk area because the indirect
            costs of these programs usually exceed 50 percent of direct labor costs.
        •   Cost avoidances in this area range up to hundreds of millions of dollars.




10
   The CIPR Center is part of the DCMA Contract Business Operation Unit located at DCMA Headquarters
(Fort Belvoir, Virginia).
11
   The two CIPR teams are known as the CIPR Team East and the CIPR Team West. The CIPR Team East is
located in Staten Island, NewYork, and the CIPR Team West is located in Carson, California.


                                                   4
Currently, no guidebook for the CIPR process exists. However, the directive requires that the
ACO perform a number of post-CIPR actions that include, but are not limited to:

        •   Sending a letter to the contractor summarizing CIPR results and requesting
            contractor comments on the review recommendations.
        •   Discussing contractor responses with the CIPR team leader and finalizing the
            Government's position on the issues.
        •   Maintaining price negotiation memorandum documentation supporting issue
            resolution.
        •   Providing the CIPR team with a copy of any audit report received after a CIPR that
            relates to insurance, pensions, or other deferred compensation issues.

Disposition of issues is to occur during negotiation of forward pricing rate agreements and final
indirect cost rates. Thus, contracting officers predominantly use CIPR reports to determine
pricing of insurance/pension costs on many Government contracts and proper charging of
incurred insurance/pension costs to Government contracts.

Prior Audit Coverage. The NASA Office of Inspector General has not performed prior
audits of health care costs. However, two DoD Office of Inspector General reports issued
within the last 4 years identified various issues affecting the CIPR process. For example, a DoD
Inspector General March 1997 report on oversight of defense contractor insurance and pension
plans states "the lack of proper review coverage presents substantial risk to the Government
that incurred costs are improperly allocated and budget estimates are inaccurate. Unless
reviews are timely, contractor forward pricing rates may not be updated and negotiated
contracts may be adversely affected." Appendix C contains more detail about the March 1997
report and a DoD Inspector General report related to health care costs issued in April 2000.
The latter report states that audit coverage of certain health care costs was limited and focused
primarily on administrative rather than health care delivery costs.

DCMA Actions to Improve the CIPR Process. During audit field work, we discussed with
the DCMA actions to improve the CIPR process. DCMA management stated that they
proposed actions during fiscal year 2000 to improve the CIPR process. The proposed actions
addressed issues in the March 1997 DoD Inspector General report mentioned earlier. Those
actions included implementing a joint review guide for insurance costs and providing more
working paper support for analyses performed. The joint review guide for insurance is in draft
form. DCMA plans to meet with DCAA before
September 30, 2000, to discuss which agency will perform proposed steps in the joint review
guide and to finalize the guide. DCMA also plans to improve the quality of documentation
included in the CIPR working papers. DCMA employees received working paper training
during FY 2000, which included instructions on the type of documents that the working papers
should contain. DCMA CIPR Center Management plans to perform reviews of employee
working papers.



                                                5
NASA Oversight of CIPR Reports and Services

Finding. NASA can enhance the value of CIPR’s in the negotiation of contracts and
modifications and better ensure that delegated contract administrative services effectively control
contract costs. Specifically, four of the six CIPR reports addressing six major NASA contracts
lacked a complete analysis of insurance costs as required by CIPR guidance, and three of those
six reports were not issued in a timely manner. This occurred partly because NASA was not
systematically reviewing or tracking CIPR’s performed by DCMA when contract administrative
responsibilities were delegated. Additionally, the NASA FAR Supplement contains no
guidance related to CIPR’s such as contracting officer responsibilities for obtaining and
reviewing CIPR reports, providing input to risk assessments performed to determine the need
for a CIPR, or the conditions under which a NASA PCO should consider requesting a special
CIPR and how such a request should be processed. Since CIPR guidance was modified in
November 1999 to eliminate the requirement for a CIPR every 2 years and to focus instead on
a risk-based approach, a greater need exists for NASA contracting officers to request special
CIPR’s. These requests can be based on questions arising during contract performance or as a
result of forward pricing or indirect cost negotiations. Incomplete and untimely CIPR’s
adversely affect the ability of NASA PCO’s to negotiate fair and reasonable prices for
contracts and modifications because of the resulting uncertainty concerning forward pricing
rates. In addition, DCMA ACO’s can be impeded from effectively negotiating contractor
indirect cost rates under these circumstances. Finally, NASA contracting officers participating
in indirect cost rate negotiations in cases of a significant NASA financial interest could also be
negatively affected by the lack of complete and timely CIPR results.

FAR and NASA FAR Supplement Requirements. The FAR and the NASA FAR
Supplement contain little guidance on CIPR’s. FAR Subpart 42.302, "Contract administration
functions," requires contracting officers to review contractor insurance/pension plans. NASA
normally delegates that responsibility to the cognizant DCMA ACO. However, NASA
contracting officers are ultimately responsible for ensuring that services affecting their contracts
are satisfactory. The NASA FAR Supplement contains no requirements or guidance for
contracting officers to request or review CIPR reports. Additional NASA FAR Supplement
guidance is needed to emphasize CIPR’s are no longer performed on a cyclical basis. NASA
PCO’s, therefore, must carefully review CIPR’s to ensure that the results are current and
applicable to the negotiation at hand. Because the November 1999 policy change will likely
affect the frequency of CIPR’s, the need for a special CIPR and the associated lead time for its
performance are critical factors that the contracting officer must plan for.

Completeness of CIPR Reports. Four CIPR reports reviewed were incomplete because the
team leader did not resolve or include references to discrepancies between audit reports and
CIPR field work before issuing the CIPR report. The DFARS Section 242.7303 requires the



                                                 6
team leader, when possible, to resolve such discrepancies. Two incomplete reports are
illustrated below; the remaining two are discussed in Appendix F:

        •    A February 4, 1998, CIPR report of the Lockheed Martin Corporation that
             covered multiple fiscal years, including 1995, concluded that group insurance costs
             were allowable, allocable, and reasonable to Government contracts. However, two
             1996 DCAA reports identified two instances of contractor noncompliance with
             CAS 416. In both instances, the contractor's allocation method did not properly
             allocate the costs on a causal and beneficial basis as required by CAS 416. The
             DCAA auditors assessed these noncompliance(s) as significant but did not quantify
             the impact in dollar terms. Accordingly, either noncompliance may have affected
             the allowability, allocability, and reasonableness of insurance costs addressed in the
             February 1998 CIPR report. Yet, the 1998 CIPR report made no mention of
             either noncompliance and concluded the costs were allowable. We also reviewed a
             March 2000 DCAA audit report that cited the noncompliance(s) as ongoing.

        •    A June 4, 1999, CIPR report of the United Space Alliance stated that the DCAA
             should verify allocation amounts for group plans. However, about a month later, the
             DCAA issued a July 1999 supplemental audit report on final indirect rates and
             incurred costs for fiscal year 1997 at the United Space Alliance. The auditors
             reviewed the contractor's indirect cost pools and allocation bases and found them
             acceptable except for a qualification related to corporate home office allocations
             that could affect group insurance plans. Despite DFARS requirements that require
             the team leader to resolve discrepancies between audit reports and the CIPR work
             before releasing the final CIPR report, the team leader did not include a reference to
             DCAA's audit work or pending report that was issued the following month. As a
             result, we consider the CIPR results to be incomplete.

Timeliness of CIPR Reports. Three reviewed CIPR reports were untimely because the
CIPR team did not ensure that they complied with DFARS biennial requirement for CIPR’s in
effect before November 1999. Although a CIPR was required every 2 years, there was no
requirement that the CIPR team issue a CIPR report every 2 years. However, for the three
CIPR reports we reviewed, the elapsed time between issuance of CIPR reports was greater
than 2 years as detailed below. If timely CIPR reports are not issued, the risk increases that an
ACO may negotiate a contract price that is not in the Government's best interest.

        •    The CIPR team issued its last CIPR report of the Space Telescope Science
             Institute,12 in August 1993. The CIPR team had not performed a review since that
             time.

12
  The Goddard Space Flight Center formally contracts with the Association of Universities for Research in
Astronomy. The Space Telescope Science Institute is an operating segment of the association and
performs most contract operations.


                                                    7
        •    The CIPR team issued its most recent CIPR report of Raytheon Information
             Systems Company, 13 in May 1996. The DCMA informed us in February 2000 that
             a CIPR was on going. As of July 2000, the CIPR team had not issued its report.

        •    The CIPR team issued its most recent report of Thiokol Propulsion, 14 in August
             1999. The report indicated that although the CIPR team issued reports from July
             1992 through August 1999, the team leader could locate only a July 27, 1992,
             report. The team leader should have been able to locate CIPR reports issued
             through August 1999. The information in the August 1999 report does not indicate
             how many CIPR reports the team issued from July 1992 to August 1999 or why
             the missing reports could not be located.


Reasons for Untimely Reports. The three CIPR reports were untimely for various reasons.
The team leader responsible for the 1993 CIPR report at the Space Telescope Science Institute
considered biennial CIPR's unnecessary because he believed there was a low risk of insurance
costs being unallowable. The team leader lacked the authority to make such a decision in light
of the DFARS requirement for biennial reviews. Further, DCMA Directive 5000.4 states,
"contractor insurance and pension programs are a high risk area." The team leader responsible
for the Raytheon Information Systems CIPR report has not provided an explanation for the lack
of a CIPR report since 1996.15 The Thiokol team leader indicated in the August 1999, report
that his office has been unable to locate prior reports transferred to the CIPR West Coast office
upon closure of the CIPR operation previously located in Chicago, Illinois.

Guidance Needed to Ensure Timely CIPR’s. Current DFARS guidance does not ensure
that CIPR’s will be performed in a timely manner. Prior to the November 9, 1999, DFARS
change, a CIPR was required every 2 years. DFARS Section 242.7302, “Requirements,”
currently states that the ACO determines the need for a CIPR based on a risk assessment 16 of
13
   The Goddard Space Flight Center awarded contract number NAS 5-6000 to the Hughes Information
Technology Corporation in 1993. This Hughes Aircraft Company component eventually became the
Hughes Information Technology Systems, Civil Systems (HITS-CS). On December 18, 1997, the Raytheon
Company merged with the Hughes Aircraft Company's defense business units that included HITS-CS. After
the merger, HITS-CS was renamed Raytheon Systems Company-Civil Systems. In December 1999, the
company became Raytheon Information Systems Company following a Change-of-Name Agreement
between Raytheon and the United States of America.
14
   The CIPR team performed its review at Cordant Technologies, Inc., which consists of Thiokol Propulsion
and two other major businesses. On May 5, 1998, Thiokol Corporation (TC) announced it was changing its
name to Cordant Technologies, Inc. On July 1, 1997, TC consolidated its propulsion business into a single
division called Thiokol Propulsion. Thus, Thiokol Propulsion is now a division of Cordant Technologies,
Inc.
15
   In February 2000, the DCMA El Segundo, California, office informed the DCMA Baltimore office that a
CIPR was in progress on transferred pension plan assets/liabilities for a company merger. The CIPR West
Coast team has not provided us with further details.
16
   DCMA Directive 5000.4, “Contract Management, “ Chapter 7.2, Section 4.F.2, states that prior to the start
of each fiscal year, the CIPR Team must review the list of contractors known to exceed the $40 million
Government sales threshold along with the data supplied by the ACO’s. The CIPR Team must perform a risk


                                                     8
the contractor’s past experience and current vulnerability. This change in DFARS guidance
could result in extended periods between CIPR’s and in ineffective CIPR’s. For example, the
June 4, 1999, CIPR report of the United Space Alliance addressed group insurance plans that
were no longer in effect in June 1999. NASA CIPR guidance is needed to ensure (1) timely
CIPR’s are performed if changes in contractors’ insurance plans occur and (2) NASA uses
current information for contract negotiations and modifications. NASA could enhance its
oversight of the CIPR process/reports if the Agency received periodic status reports from the
DCMA. The DCMA should be able to provide NASA with information concerning DoD's
major contractors that could include recently issued CIPR reports, planned CIPR’s, and major
deficiencies arising from CIPR’s that may affect NASA.

Although insurance/pension costs could materially affect contract price, the NASA FAR
Supplement contains no CIPR requirements or guidance. Consequently, NASA contracting
officers may have relied on incomplete and untimely CIPR reports to develop contract
negotiation positions and obtain what they considered fair and reasonable contract prices.
Further, NASA lacks assurance that DCMA has adequately reviewed and tested health care
costs.

Recommendations, Management’s Response, and Evaluation of
Response

The NASA Associate Administrator for Procurement should:

   1. Establish a process to track and review CIPR’s for major NASA contractors.
      The process should include a requirement for DCMA to provide a periodic
      report to NASA on the status of CIPR’s for major NASA contractors.

   2. Revise the NASA FAR Supplement to include guidance for the contracting
      officer review of CIPR’s, the criteria and process for requesting special CIPR’s,
      and any requirements for contracting officer input to the DoD on contractors for
      which NASA has a major financial interest.

Management’s Response. Concur. Regarding recommendation 1, NASA management
stated it will review data compiled in the DCMA Contractor Information Service’s Contractor
Systems Status Table to determine its usefulness for tracking and reviewing CIPR’s.
Management will address recommendation 2 by issuing a Procurement Information Circular
containing relevant CIPR guidance.


assessment for each contractor based on criteria set forth in DFARS 242.7302 and must make
recommendations to the ACO regarding the need to perform the CIPR. The ACO must decide to perform the
CIPR based on the level of the Government’s risk. The ACO should refer to DFARS 242.7302 for guidance
in recognizing situations that increase the Government’s risk. A DCMA CIPR Team official stated that the
majority of the CIPR’s are special CIPR's rather than CIPR's planned for in advance at the start of the year.


                                                     9
In addition, NASA management’s general comments on the report indicated that we did not:

        •   grasp the CIPR process relative to Corporate Administrative Contracting Officers
            and buying activities such as NASA;
        •   demonstrate that untimely or incomplete CIPR reports adversely affected contract
            prices; and
        •   understand why a risk-based approach is the most efficient method for determining
            when a CIPR is performed.

The complete text of management’s comments is in Appendix G.

Evaluation of Response. Although management concurred, planned actions are only
potentially responsive to the intent of recommendation 1 as discussed below. We consider
recommendation 2 resolved but undispositioned and open until agreed-to corrective actions are
completed. In addition, we disagree with the context of management’s general comments on
the findings. Details on our positions follow.

Management stated it plans to investigate the ability of DCMA’s system to track CIPR’s for
major NASA contractors. We consider management’s response incomplete because it does
not include a commitment to establish a process should the DCMA system prove unworkable.
We understand that management will pursue alternative methods for tracking CIPR’s for major
NASA contractors if the DCMA system does not meet management’s needs. Moreover,
management did not state its plans for obtaining a periodic status report for its major contractors
from the DCMA. Accordingly, we request that management provide additional comments on
the implementation of controls to track and review CIPR’s for major NASA contractors.

We also disagree with several of management’s general comments. Management indicated that
we failed to grasp the CIPR process as it relates to NASA or any other Federal buying activity.
Management stated that because Corporate Administrative Contracting Officers use CIPR
results to negotiate final indirect cost rates and forward pricing rates at the corporate level, the
results are not specifically reported to ACO’s and are not, therefore, normally reported to the
buying activity such as NASA. We disagree based on the six CIPR reports we reviewed.

Of the six CIPR reports reviewed, two were specifically directed to ACO’s and one was
directed to both the DCMA ACO and the NASA Corporate ACO. In addition, the DCMA
One Book requires the CIPR team to make distribution of the report to the ACO.




                                                10
Furthermore, DFARS guidance identifies the ACO as the individual responsible for requesting a
CIPR. NASA and delegated ACO’s should play a much larger role in the CIPR process than
NASA management implies.

The CIPR serves multiple purposes. First, the CIPR is used by ACO's in the negotiation of
contractor-incurred cost proposals in order to determine final indirect cost rates that are used to
close out contracts. NASA PCO's should maintain an awareness of these negotiations and, as
discussed in the NASA FAR Supplement, directly participate if NASA has a major financial
interest. Such negotiations can result in deobligation of funds that potentially can be applied to
other requirements or, less likely, can result in the identification of funding shortfalls that must be
addressed. Second, the CIPR is used by ACO's to determine forward pricing rates which, in
turn, are used by PCO's for negotiation of new contracts and modifications to existing contracts.
The NASA PCO is ultimately responsible for obtaining fair and reasonable prices. In forming a
negotiating position, the PCO should understand the basis for the rates proposed by the
contractor and the results of all current assessments related to those rates, including, for
example, DCAA audits and the CIPR performed by DCMA. Third, the CIPR should be used
by ACO's in the negotiation of billing rates which the contractor uses for submission of requests
for payment as work progresses on contracts. The NASA PCO has a direct interest in these
billing rates because adjustments may be required to ensure sufficient funds are obligated on
contracts as part of the internal control process to ensure compliance with fiscal statutes,
including the Antideficiency Act.

Management comments do not recognize that DCMA performs contract administration through
a delegation from NASA. NASA responsibility for contract administration does not end when
the delegation is executed, and the impact of any deficiencies is reflected in the quality and
timeliness of the goods and services received and the prices paid. Management comments
demonstrate the precise problem that is the cause for our concern by stating; “DCMA has only
15 pension and insurance specialists to review pension and insurance plans for all Government
contractors for which it is responsible for contract administration.” Our findings that the CIPR's
were incomplete and untimely coupled with policy changes that will reduce required CIPR
coverage are all a reflection of this relatively low resource commitment by DCMA. As a paying
customer of DCMA, NASA should be requesting the level of assurance it deems necessary to
award and administer contracts through the use of special CIPR requests rather than blindly
accept the risk that these pension and insurance costs, which are invariably significant, are
allowable, allocable, and reasonable.

NASA’s general assertion that buying activities normally do not see the results of the CIPR is
inconsistent with the importance of the CIPR process to the award and administration of NASA
contracts and the decrease by DCMA in resources and policy requirements associated with
performance of CIPR's. In our opinion, NASA should be on guard to ensure the CIPR
process is providing appropriate support to negotiations by or for NASA that impact NASA
contracts. In this regard, we are pleased that NASA has decided to concur with our
recommendations to correct these weaknesses.


                                                  11
NASA management also stated that the report does not support our position that incomplete or
untimely CIPR reports adversely affect NASA contract prices. We did not accomplish or
reaccomplish CIPR’s in order to demonstrate actual impact. However, the risks of a faulty
CIPR process are clear. The DCMA One Book states that costs of insurance and pension
programs materially affect contract price. The One Book states “contractor insurance and
pension programs are a high risk area because the indirect costs of these programs usually
exceed 50 percent of direct labor costs.” Furthermore, the DoD Inspector General concluded
in a 1997 audit report that CIPR reviews were inadequate and untimely and that a substantial
risk existed that incurred costs were improperly allocated to Government contracts and that
forward pricing estimates for future contracts were inaccurate. Similar to the DoD Inspector
General audit, our audit showed that CIPR reports continue to be incomplete and untimely;
therefore, we concluded that NASA contract prices could be adversely affected.

Finally, management indicated that the auditor did not comprehend that using a risk-based
rather than cyclical approach is more effective in determining when the contracting officer
requests a CIPR. Management stated that due to scarce DCMA resources, a risk-based
approach is necessary. Our concern is that in order to identify the level of risk, some level of
review is needed. It is inappropriate to assume a low level of risk and then use this unsupported
risk assessment as a basis to justify not performing CIPR’s.

In conclusion, due to scarce DCMA resources and a history of CIPR control weaknesses
identified by recent audits, increased NASA oversight is necessary. ACO’s and NASA
contracting officers are inherently responsible for CIPR results and should be aware of the
impact of those results on business segments and contract prices. FAR Part 15 requires a
contracting officer to obtain a fair and reasonable contract price. This requirement exists
although PCO’s normally delegate reviews of insurance plans and costs to the contract
administration office. Given the materiality of insurance/pension costs and the requirements of
the FAR and DoD regulations, we believe that NASA PCO’s must be knowledgeable of CIPR
results at major contractors.




                                               12
               Appendix A. Objectives, Scope, and Methodology

Objectives

Our overall objective was to evaluate NASA processes for controlling health care costs.
Specifically, we assessed the effectiveness of:

•    NASA pricing policies and decisions for health care costs in NASA contracts;
•    the services DCMA provides in administering health-care related aspects of NASA
     contracts and in performing CIPR’s; and
•    the services DCAA provides in supporting CIPR's, performing incurred cost audit work
     related to health care costs, and supporting NASA pricing decisions regarding health care
     costs in contract proposals.


Scope and Methodology

We obtained a list of NASA's active top 20 contracts by estimated value as of
August 31, 1999, and with a completion date after October 1, 1999. To evaluate the CIPR
process, we reviewed CIPR reports for 6 of NASA's 20 largest contracts. See Appendix D
for a list of the six contracts/contractors reviewed. Appendix E of this report shows a
comparison of annual contract and health care costs for the six contracts. We also:

•    Reviewed DCAA audit reports for the six contracts/contractors.
•    Met with the DCAA Branch Manager, supervisor, and auditors at two of the six
     contractors, and reviewed audit working papers.
•    Met with the Director of the CIPR Center at DCMA Headquarters to discuss various
     aspects of the CIPR process and reports.
•    Met with the CIPR East Coast team to review CIPR reports and working paper
     documentation and to discuss the CIPR process.
•    Discussed the CIPR processes and reports with the CIPR West Coast team leader.
•    Met with the NASA ACO and the DoD ACO for the United Space Alliance.17
•    Met with human resources, management, and financial representatives from the United
     Space Alliance and the Space Telescope Science Institute to discuss the development and
     status of their health care plans and accounting practices.




17
 The Lyndon B. Johnson Space Center issued NASA's largest contract (by value), to the United Space
Alliance. The contract is currently valued at about $8.6 billion.


                                                 13
Management Controls Reviewed

During the audit, we performed a detailed review of contractor policies, procedures, and plans
associated with health care costs at both the United Space Alliance and the Space Telescope
Science Institute. Key reviewed documents included:

•      A KPMG Peat Marwick independent audit report addressing the Space Telescope Science
       Institute's Group Health Plan.
•      A PricewaterhouseCoopers independent auditors' report of the control structure for
       administrative claim services and modified administration plan processing for the year ended
       December 31,1998, for CIGNA HealthCare.18
•      The DCMA's Site Plan for providing delegated contract administration services to NASA
       under the United Space Alliance contract.

We did not perform similar management control reviews for the remaining four contractors.

Audit Field Work

We performed the audit field work for this report from October 1999 through July 2000. We
conducted the audit in accordance with generally accepted government auditing standards.




18
     The United Space Alliance purchases its employee health care insurance through CIGNA.



                                                    14
    Appendix B. Responsibilities of Insurance/Pension Specialists and
                           DCAA Auditors

The DFARS Subpart 242.7303 defines the responsibilities of insurance/pension specialists and
the DCAA auditors when conducting a CIPR. The DFARS requires the insurance/pension
specialist to:

•   Issue a technical report on the contractor's insurance/pension plans for incorporation into
    the final CIPR report based on an analysis of the contractor's pension program, insurance
    program, and other related data.

•   Lead the team that conducts the review. Another individual may serve as the team leader,
    however, if the insurance/pension specialist and that individual agree. The team leader
    responsibilities include, but are not limited to:

            §   Maintaining complete documentation for CIPR reports.
            §   To the extent possible, resolving discrepancies between audit reports and
                CIPR draft reports before issuing the final CIPR report.
            §   Preparing and distributing the final CIPR report.
            §   Providing the final audit report and/or the insurance/pension specialist's
                report as an attachment to the CIPR report.

The DCAA auditor responsibilities are:

•   Participating as a member of the CIPR team or serving as the team leader with the
    concurrence of the insurance/pension specialist.

•   Issuing an audit report for incorporation into the final CIPR report based on an analysis of
    the contractor's books, accounting records, and other related data.

•   Performing contract audit responsibilities related to CAS administration as described in
    FAR Subparts 30.2 and 30.6.




                                                  15
     Appendix C. DoD Office of Inspector General Reports Addressing
                          Health Care Costs

DoD Office of Inspector General Report on Evaluation of the Defense Contract Audit
Agency Audit Coverage of TRICARE19 Contracts, Report Number D-2000-6-004,
issued April 17, 2000. The report states that health care costs are “rapidly escalating,” and
indicates that the audit coverage provided was too limited to adequately cover health care costs.
DCAA provided the requested audit support for contract awards, change orders, and contract
administration. However, the requested audit support was limited to the administrative health
care costs, which were only about 15 to 20 percent of the proposed contract costs. The
remaining 80 to 85 percent not reviewed represented health care delivery costs. The report
states that the DoD was at risk that unallowable costs had not been identified or questioned
because TRICARE management limited audit coverage to administrative costs.

DoD Office of Inspector General Evaluation Report on DoD Oversight of Defense
Contractor Insurance and Pension Plans, Report Number PO 97-013, issued March
28, 1997. The report states that the DCMA does not properly plan, document, and coordinate
the insurance and pension reviews with the Defense Contract Audit Agency. The report also
states that the DCMA generally has not performed timely reviews of pension and insurance
programs in connection with business reorganizations and that untimely reviews can adversely
affect negotiated contract prices. In addition, the report states that the two issues the Office of
Inspector General identified during its 1997 audit were also identified in a 1993 audit. The two
issues follow:

             •    The DCMA has failed to develop a joint review program with DCAA although it
                  agreed to do so. The lack of a review program seriously obstructs a coordinated
                  CIPR team effort.
             •    The DCMA insurance/pension specialists do not prepare workpaper
                  documentation of their reviews .


The DCMA did not take sufficient actions to correct these two issues as we discuss in this
report under the section titled, “ Prior Audit Coverage.”




19
  In March 1995, the DoD created TRICARE to provide health care for active duty service members and
their families, military retirees and their families, and other TRICARE-eligible recipients through managed
care support contracts.


                                                      16
              Appendix D. List of NASA Contracts Reviewed


   Contract       Contractor                     Completion   May 31, 2000
   Number           Name            Award Date     Date       Contract Value

NAS 9-20000     United Space        09-26-1996   09-30-2002    $ 8.60 billion
                Alliance

NAS 8-38100     Thiokol             07-17-1991   02-15-2001     $ 4.00 billion
                Propulsion

NAS 9-19100     Lockheed Martin     12-23-1993   12-31-2003     $ 1.70 billion
                Engineering and
                Science
                Company

NAS 8-45000     Boeing North        06-28-1996   12-31-2001     $ 1.30 billion
                American, Inc.

NAS 5-60000     Raytheon            03-30-1993   10-31-2002     $ .96 billion
                Information
                Systems
                Company

NAS 5-26555     Space Telescope     04-30-1981   04-30-2002     $ .83 billion
                Science Institute

Total Value                                                     $17.39 billion




                                        17
                    Appendix E. Contractor Health Care Costs


                                                            Estimated   Percentage of Health
                                                          Annual Health     Care Costs
                                                                      1
                                  Contract Costs           Care Costs       Compared to
        Contractor Name             for 19991                              Contract Costs
       United Space
                                   $1,447.6 million        $40.5 million                2.8%
       Alliance

       Thiokol Propulsion          $ 201.9 million          $7.3 million                3.6%

       Lockheed Martin
       Engineering and             $ 164.3 million          $5.2 million                3.2%
       Science Company
       Boeing North
       American, Inc.              $ 179.0 million          $9.7 million                5.4%

       Raytheon Information
       Systems Company             $ 131.0 million        $ 0.9 million2                0.7%


       Space Telescope
                                   $ 67.4 million          $ 1.7 million                2.5%
       Science Institute
       Total Estimated
                                                          $65.3 million
       Health Care Costs

1
  Contract costs and estimated annual health care costs are on a calendar year basis except for the Space
Telescope Science Institute contract amounts.
2
  We did not include estimated health care costs for major subcontractors or interdivisional subcontractors
because the information is not available at this time.




                                                     18
                       Appendix F. Incomplete CIPR Reports

In addition to the two incomplete CIPR reports discussed under the section of this report
entitled, “Completeness of CIPR Reports,” we identified the following two incomplete CIPR’s:

•    The August 31, 1999, CIPR report for Thiokol Propulsion20 contained incomplete results.
     The section of the report addressing employee group insurance states that the team leader
     planned to issue a separate report regarding employee group insurance. However, the
     report did not indicate what aspects of the company's group insurance were reviewed (if
     any) or why the team did not or could not address the group insurance plans.

•    The August 10, 1993, CIPR report for the Space Telescope Science Institute lacked
     evidence or testimony that specialists/auditors tested pertinent FAR and CAS sections. The
     contractor is self-insured and assumes losses if health care claims are excessive. The FAR
     Subpart 28.308 and CAS 416 require contractors to comply with various administrative
     and cost requirements if self-insured.




20
  Thiokol Propulsion is one of three businesses that comprise Cordant Technologies, Inc. In May 1998,
Thiokol Corporation, which included Thiokol Propulsion, changed its name to Cordant Technologies, Inc.


                                                  19
Appendix G. Management’s Response




               20
     Appendix G




21
Appendix G




             22
     Appendix G




23
                          Appendix H. Report Distribution

Note: This list shows the distribution of the final report only. The list does not apply to the
draft report.

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
HK/Director, Contract Management Division
HS/Director, Program Operations Division
J/Associate Administrator for Management Systems
JM/Acting Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
P/Associate Administrator for Public Affairs
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aerospace Technology
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Sciences
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, Ames Research Center
Director, Dryden Flight Research Center
Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Johnson Space Center
Director, Kennedy Space Center
Director, Langley Research Center
Director, Marshall Space Flight Center
Director, Stennis Space Center
Chief Counsel, John F. Kennedy Space Center




                                                24
Appendix H

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Assistant to the President for Science and Technology Policy
Deputy Associate Director, Energy and Science Division, Office of Management and
 Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division, Office
 of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisitions Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member – Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on Government Management, Information, and Technology
House Subcommittee on National Security, Veterans Affairs, and International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics, Committee on Science

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             25
                  NASA Assistant Inspector General for Auditing
                                 Reader Survey


The NASA Office of Inspector General has a continuing interest in improving the usefulness of
our reports. We wish to make our reports responsive to our customers’ interests, consistent
with our statutory responsibility. Could you help us by completing our reader survey? For your
convenience, the questionnaire can be completed electronically through our homepage at
http://www.hq.nasa.gov/office/oig/hq/audits.html or can be mailed to the Assistant Inspector
General for Auditing; NASA Headquarters, Code W, Washington, DC 20546-0001.


Report Title: Audit of Health Care Costs at NASA Contractors

Report Number:                                        Report Date:


Circle the appropriate rating for the following statements.
                                                      Strongl                              Strongl
                                                         y      Agree   Neutra   Disagre   y         N/A
                                                       Agree              l         e      Disagre
                                                                                              e
1.   The report was clear, readable, and logically       5       4        3         2         1      N/A
     organized.
2.   The report was concise and to the point.            5       4        3         2         1      N/A
3.   We effectively communicated the audit               5       4        3         2         1      N/A
     objectives, scope, and methodology.
4.   The report contained sufficient information to      5       4        3         2         1      N/A
     support the finding(s) in a balanced and
     objective manner.


Overall, how would you rate the report?

      Excellent               Fair
      Very Good               Poor
      Good

If you have any additional comments or wish to elaborate on any of the above
responses, please write them here. Use additional paper if necessary.
How did you use the report?




How could we improve our report?




How would you identify yourself? (Select one)

       Congressional Staff                         Media
       NASA Employee                               Public Interest
       Private Citizen                             Other:
       Government:               Federal:             State:         Local:


May we contact you about your comments?

Yes: ______                                     No: ______
Name: ____________________________
Telephone: ________________________


Thank you for your cooperation in completing this survey.
Major Contributors to the Report
Lorne Dear, Program Director, Procurement Audits

Tony Lawson, Program Manager, Procurement Audits

Michael Bruns, Auditor-in-Charge

Ronald Callahan, Auditor

Nancy C. Cipolla, Report Process Manager

Christina Head, Program Assistant
